No. _________
_________________________
In the

Supreme Court of the United States
_________________________
MICHELLE CARTER,
Petitioner,
v.
COMMONWEALTH OF MASSACHUSETTS,
Respondent.
_________________________
Application for an Extension of Time
Within Which to File a Petition
for a Writ of Certiorari to the Supreme Judicial Court
of the Commonwealth of Massachusetts
_________________________
APPLICATION TO THE HONORABLE JUSTICE
STEPHEN G. BREYER AS CIRCUIT JUSTICE
_________________________
Nancy Gertner*
Daniel N. Marx
William W. Fick
FICK & MARX LLP
24 Federal Street, 4th Floor
Boston, MA 02110
(857) 321-8360
ngerter@fickmarx.com
dmarx@fickmarx.com
wfick@fickmarx.com
Attorneys for Applicant/
Petitioner Michelle Carter
*Counsel of Record
_________________________

APPLICATION FOR AN EXTENTION OF TIME
Pursuant to Rule 13.5 of the Rules of this Court, Applicant Michelle Carter
hereby requests a 60-day extension of time within which to file a petition for a writ
of certiorari up to and including Monday, July 8, 2019.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment for which review is sought is Commonwealth v. Michelle Carter,
481 Mass. 352 (2019) (attached as Exhibit 1).
JURISDICTION
This Court will have jurisdiction over any timely filed petition for certiorari in
this case pursuant to 28 U.S.C. § 1257(a).
Under Rules 13.1, 13.3, and 30.1 of the Rules of this Court, a petition for a writ
of certiorari is due to be filed on or before Wednesday, May 7, 2019. In accordance
with Rule 13.5, this application is being filed more than 10 days in advance of the
filing date for the petition for a writ of certiorari.
REASONS JUSTIFYING AN EXTENSION OF TIME
Applicant respectfully requests a 60-day extension of time, up to and including
Monday, July 8, 2019, in which to file a petition for a writ of certiorari seeking review
of the decision of the Supreme Judicial Court of the Commonwealth of Massachusetts.
1.

The Supreme Judicial Court is the first court to have affirmed a

conviction for a defendant who with her words alone advised, encouraged, or coerced
another person to commit suicide, even though the defendant neither physically
provided the means of death nor physically participated in the suicide or was even
close to the scene. In doing so, the Supreme Judicial Court created a direct conflict
1

with at least three other state supreme courts about the application of the First
Amendment in such circumstances. It also disregarded the precedents from this
Court concerning the guarantee of Due Process.
2.

In rejecting Applicant’s First Amendment challenge, the Supreme

Judicial Court relied on Giboney v. Empire Storage & Ice Co., 336 U.S. 490 (1949), a
civil case involving an injunction against picketing, and held Applicant’s words were
not protected speech because they constituted “speech integral to criminal conduct.”
Before this case, no court had ever applied Giboney to affirm a conviction for assisted
suicide. In so doing, the Supreme Judicial Court created a direct conflict with state
supreme courts that have expressly rejected similar arguments in criminal cases
involving suicide, see State v. Melchert-Dinkel, 844 N.W.2d 13 (Minn. 2014) (vacating
assisted-suicide convictions, invalidating portions of Minnesota’s assisted-suicide
state on First Amendment grounds, and remanding for further proceedings), and
stalking, see People v. Releford, 2017 IL 121094 (2017) (invaliding stalking
convictions based on “communications” alone and invaliding provisions of stalking
and cyberstalking laws that criminalize communications to or about another person),
and State v. Shackelford, 2019 N.C. App. LEXIS 257 (Oct. 18, 2018) (invalidating
stalking convictions based on “communications” alone). These courts have refused to
apply the Giboney exception where “the speech is the criminal act,” Releford, 2017 IL
121094 at 10 (emphasis in original); see also Shackelford, 2019 N.C. App. LEXIS 257,
at 21 (rejecting argument based on the Giboney exception because “his speech itself
was the crime”), rather than an integral part of a broader course of criminal conduct.

2

3.

Further, in rejecting Applicant’s Due Process challenge, the Supreme

Judicial Court recognized that not all individuals who advise, encourage, or even
actively assist other persons to commit suicide should face prosecution for
involuntary manslaughter. But the Court failed to draw any clear lines, which the
Constitution requires. Who is to say whether a particular case is an acceptable
assisted-suicide or a blameworthy killing? In affirming Applicant’s conviction, the
Supreme Judicial Court broadly authorized prosecutors to charge all persons who –
with their words alone – cause others to commit suicide. It left to prosecutors (and
judges) the difficult task of differentiating, on “an ad hoc and subjective basis,”
between such cases. Grayned v. Rockford, 408 U.S. 104, 108-109 (1972); see Sessions
v. Dimaya, 138 S. Ct. 1204, 1227-1228 (Gorsuch, J., concurring in part and in
judgment). Although due process demands “minimal guidelines to govern law
enforcement,” especially when the criminal law may implicate “expression sheltered
by the First Amendment,” Smith v. Goguen, 415 U.S. 566, 574 (1974), the Supreme
Judicial Court did not even mention that constitutional requirement, much less
provide the requisite guidance. Its dubious “assumption” that prosecutors will act
“responsibly” in charging involuntary manslaughter in future suicide cases
undermines the constitutional protections, which this Court has clearly establish and
consistently maintained, against the arbitrary enforcement of criminal laws. See
Marinello v. United States, 138 S. Ct. 1108-1109 (2018) (quoting McDonnell v. United
States, 136 S. Ct. 2355, 2372-2373 (2016) (quoting United States v. Stevens, 559 U.S.
460, 480 (2010))).

3

4.

The requested extension of time is also necessary because of the press of

other business, including representation of indigent clients in court-appointed
matters under the Criminal Justice Act.
5.

Since the Supreme Judicial Court affirmed Applicant’s conviction, and

in the coming months, undersigned counsel have numerous competing commitments
representing retained and appointed clients in Federal and state courts before trial,
on appeal, and in post-conviction proceedings. See, e.g., United States v. Morel, No.
17-1696, __ F.3d __ (argued April 4, 2019; decided April 19, 2019); United States v.
Frisiello, No. 1:18-cr-10314-NMG (D. Mass.) (sentenced April 19, 2019); United States
v. Tkhilaishvili, No. 18-1098 (1st Cir.) (reply brief due April 29, 2019; argument set
for May 9, 2019); United States v. Bashir, No. 1:18-cr-10188-ADB (D. Mass.)
(sentencing set for April 26, 2019); NTV Management, Inc. v. Lightship Global
Ventures, LLC et al., No. 2018-P-1339 (Mass. App. Ct.) (reply brief due May 1, 2019);
United States v. Wolas, No. 17-cr-10198-FDS (D. Mass.) (submission regarding
forfeiture of substitute assets from third-party due May 6, 2019); Weinstein v. United
States, Nos. 18-cv-894 & 18-cv-5575 (D.N.J.) (reply brief in consolidated 28 U.S.C. §
2255 proceedings due June 3, 2019); United States v. Bautista-Diaz, 28-cr-10285-PBS
(D. Mass.) (trial set for June 17, 2019). In addition, counsel represent several clients
in pending Federal criminal and civil investigations as well as a putative class of
nearly 40,000 individuals in Foster et al. v. Commonwealth of Massachusetts et al.,
1:18-cv-10354-IT (D. Mass.), an ongoing Federal civil rights action seeking the return
of fees and fines paid and property forfeited based on wrongful convictions that the

4

Supreme Judicial Court has vacated and dismissed with prejudice due to outrageous
government misconduct in state drug labs.
CONCLUSION
For the foregoing reasons, Applicant respectfully requests that this Court
grant a 60-day extension, up to an including Monday, July 8, 2019, within which to
file a petition for a writ of certiorari in this case.
Respectfully submitted,

_______________________
Nancy Gertner*
Daniel N. Marx
William W. Fick
FICK & MARX LLP
24 Federal Street, 4th Floor
Boston, MA 02110
(857) 321-8360
ngerter@fickmarx.com
dmarx@fickmarx.com
wfick@fickmarx.com
April 24, 2019

Attorneys for Applicant/
Petitioner Michelle Carter
*Counsel of Record

5

